                                               Report No. AUD-09-020                                                    August 2009

                                               Audit of Information Technology Controls in
                                               Support of the FDIC Funds’ 2008 and 2007
   Federal Deposit Insurance Corporation       Financial Statements Audit
Why We Did The Audit                           Audit Results
The FDIC Office of Inspector General           KPMG found that the FDIC had taken action to mitigate 14 of the 15 previously
(OIG) contracted with KPMG LLP                 reported IT security control deficiencies pertaining to the FDIC’s financial systems
(KPMG) to conduct an audit of the
                                               and information. Such actions included updating the FDIC’s risk assessment for the
FDIC’s Information Technology (IT)
controls over key financial systems and        NFE, segregating incompatible system-related duties for key individuals supporting
data that support financial management         the NFE, and performing software configuration audits of the NFE. With respect to
and the generation of financial statements     the remaining control deficiency concerning maintenance of requirements baselines,
for the Deposit Insurance Fund (DIF) and       the FDIC had not yet fully implemented corrective actions by the close of KPMG’s
the Federal Savings and Loan Insurance         field work. Accordingly, the OIG plans to assess the sufficiency of the FDIC’s
Corporation Resolution Fund (FRF)              actions to address this control deficiency in future audit work.
(hereafter, the Funds). The results of this
audit support the Government                   KPMG also found that, with respect to the control areas assessed, the FDIC had
Accountability Office (GAO) in assessing       established and implemented a number of effective controls that were designed to
the effectiveness of the FDIC’s internal       protect the confidentiality, integrity, and availability of financial systems and
control over financial reporting for the       information. Of particular note, the FDIC had implemented a major restructuring of
Funds’ 2008 and 2007 financial                 the NFE’s security controls in July 2008 that included, among other things, limiting
statements audit.                              user access to system functionality and data consistent with business needs and
The objective of the audit was to assess       improving security monitoring controls.
(1) the progress the FDIC has made in          The above actions were positive. However, KPMG identified two security control
mitigating previously reported IT security
                                               deficiencies, neither of which the GAO considered to be significant deficiencies in the
control deficiencies pertaining to
financial systems and information and          context of the Funds’ 2008 and 2007 financial statements audit. Specifically, KPMG
(2) the effectiveness of the FDIC’s            found that sensitive financial information, including personally identifiable
controls in protecting the confidentiality,    information (PII), and program files were not adequately protected from unauthorized
integrity, and availability of its financial   disclosure or modification. This deficiency increased the risk of an unauthorized
systems and information. The scope of          disclosure or compromise of PII, which could have led to identity theft or other
KPMG’s work was limited to assessing           consumer fraud. The deficiency also increased the risk that a knowledgeable internal
(1) the FDIC’s remedial actions                user could have accessed or modified financial program files for unauthorized
pertaining to 15 IT security control           purposes. KPMG immediately notified the FDIC of this control deficiency and
deficiencies reported by the GAO during        subsequently confirmed that action had been taken to protect the sensitive information
the prior-year financial statements audit
                                               and files.
of the Funds and (2) selected access and
separation of duties controls within the       KPMG also found that the FDIC had not followed its software configuration
Accounts Payable and General Ledger            management processes when installing software updates to a key NFE-interfacing
modules of the PeopleSoft Enterprise           application. Specifically, the FDIC installed copies of software updates that had not
Financials Management application              been subject to proper quality assurance testing and analysis. No system problems
(PeopleSoft financials).
                                               appear to have occurred as a result of this control deficiency. In addition, FDIC
Background                                     officials described various compensating controls that would help to reduce the risk
                                               associated with this deficiency. However, the deviations from the FDIC’s
The FDIC relies extensively on                 configuration management processes presented a risk that errors or unauthorized
automated information systems to support       software modifications could have been introduced into the NFE production
the preparation of financial statements for
the Funds. The FDIC’s principal
                                               computing environment.
financial system is the New Financial          Recommendations and Management Response
Environment (NFE), which includes the
PeopleSoft financials.                         KPMG made three recommendations to strengthen IT controls by reducing the risk of
KPMG used the GAO’s January 1999               unauthorized modification or disclosure of sensitive financial information and
Federal Information System Controls            program files and ensuring that software installed in the production computing
Audit Manual methodology to conduct            environment is subject to proper quality assurance testing and analysis. The FDIC
the audit. KPMG also used security             concurred with the recommendations, and its actions and planned actions are
standards and guidelines issued by the         responsive.
National Institute of Standards and
Technology as its principal criteria.          This report addresses issues associated with information security. Accordingly, we
                                               do not intend to make public release of the specific contents of the report.
